No. 20-1008

 

IN THE

Supreme Court of the Anited States
State Farm Life Insurance Co.,
Petitioner,
v.

Michael G. Vogt on behalf of himself and others
similarly situated,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the accompanying Re-
spondent’s Brief in Opposition contains 8,996 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).

Executed on March 12, 2021.

Bae Ve

BRADLEY 7). WILDERS

STUEVE SIEGEL HANSON LLP
460 Nichols Road, Suite 200

Kansas City, MO 64112

(816) 714-7100
wilders@stuevesiegel.com
